Jeffrey A. Lamken
MoloLamken LLP
600 New Hampshire Avenue, N.W.
Washington, D.C. 20037
T: 202.556.2010
F: 202.536.2001
jlamken@mololamken.com
www.mololamken.com

June 16, 2020
BY E-FILING
The Honorable Scott S. Harris
Clerk, United States Supreme Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Arthrex, Inc. v. Smith & Nephew, Inc., No. 19-1204

Dear Mr. Harris:
Pursuant to this Court’s Rule 15.5, petitioner Arthrex, Inc. expressly waives the
14-day waiting period for distribution to the Court. Arthrex intends to file a reply in
support of its petition by June 19, 2020.
The petition in this case concerns whether retroactive application of the America
Invents Act’s inter partes review procedure violates the Fifth Amendment. As the
Government notes in its brief in opposition (at 9 n.1), this Court is already considering
three other petitions raising the same issue: Collabo Innovations, Inc. v. Sony Corp., No.
19-601 (filed Nov. 4, 2019); Celgene Corp. v. Peter, No. 19-1074 (filed Feb. 26, 2020); and
Enzo Life Sciences, Inc. v. Becton, Dickinson & Co., No. 19-1097 (filed Mar. 3, 2020).
Although the Court previously rescheduled those three cases for consideration at a later
conference, yesterday the Court reinstated the cases for consideration at this week’s
conference on June 18, 2020. The Court may also further consider the petitions at next
week’s conference on June 25, 2020.
Because Arthrex’s petition presents the same question as those other three
petitions, the Court may wish to consider all four cases together. To allow the Court to do
so, Arthrex respectfully requests that its petition be scheduled for consideration at the
same conference as the three petitions identified above.

Thank you very much for your time, attention, and assistance. Please do not
hesitate to contact me if you have any questions or concerns.
Sincerely yours,
/s/ Jeffrey A. Lamken
Jeffrey A. Lamken
cc:

All Counsel of Record
Service list attached

2

Mark Andrew Perry
Gibson Dunn & Crutcher, LLP
1050 Connecticut Avenue, NW
Washington, DC 20036-5306
(202) 887-3667
mperry@gibsondunn.com
Counsel for Respondents Smith & Nephew, Inc.
and ArthroCare Corp.
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Counsel for Respondent
United States of America

